                      UNITED STATES DEPARTMENT OF EDUCATION 

                           OFFICE OF INSPECTOR GENERAL


                                       501 I Street, Room 9-200 

                                    Sacramento, California 95814 

                 Central Office Number: (916) 930-2388 FAX Number: (916) 930-2390 



                                            December 19, 2003
                                                                                        ED-OIG/A09-D0015

Mr. Ernest S. Zermeno
Superintendent
Gonzales Unified School District
600 Elko Street
Gonzales, CA 93926

Dear Mr. Zermeno:

This Final Audit Report, entitled Gonzales Unified School District’s Administration of the
21st Century Community Learning Centers Grant No. S287A000704, presents the results for our
audit. The purpose of our audit was to determine whether the Gonzales Unified School District
(1) served the number of students projected in its grant award and reported in its annual reports, 

and (2) properly accounted for and used 21st Century Community Learning Centers (CCLC) grant 

funds in accordance with the grant terms and applicable Federal laws and regulations. Our review 

of the number of students served covered the period from June 1, 2000 through May 31, 2002. 

For the accounting and use of grant funds, we reviewed amounts charged to the grant from

June 1, 2000 through February 26, 2003. 


In its response to the draft report, Gonzales Unified School District (District) concurred with our
findings. The District agreed to return the costs improperly charged to the grant and described the
corrective actions taken to address our procedural recommendations. However, the District
disagreed with our recommendation to provide additional documentation or return the amount
charged for personnel and related costs. The District’s comments are summarized in the AUDIT
RESULTS section of the report at the end of each finding and the full text of the comments is
included as an attachment.


                                           BACKGROUND
The CCLC program, which is authorized by Title X, Part I, of the Elementary and Secondary
Education Act (ESEA), as amended, provides grants to schools for the planning, implementation,
or expansion of projects that benefit the educational, health, social services, cultural, and
recreational needs of the community. Local educational agencies are to operate community
learning centers in conjunction with local governmental agencies, businesses, vocational
educational programs, institutions of higher education, community colleges, and cultural,
recreational, and other community and human service entities. The centers must provide no less
than 4 of the 13 activities listed in the ESEA § 10905.


 Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
 ED-OIG/A09-D0015                                                                  Page 2 of 15



The U.S. Department of Education (Department) awarded the District a three-year grant, totaling
$1,560,573, to operate the CCLC program at the District’s three schools (La Gloria Elementary
School, Fairview Middle School, and Gonzales High School). The program goals were to
improve academic achievement, decrease the drop out rate, improve school safety and parent
involvement, and instill a renewed sense of commitment to the community and community
service. The District planned to serve a total of 584 students each year. The grant performance
period was June 1, 2000 through May 31, 2003. The District began the CCLC program at the
centers in Fall 2000. Due to district-wide reorganization activities, the programs were
temporarily suspended from the end of May through December 2002. The Department has
extended the grant performance period through May 31, 2004.


                                     AUDIT RESULTS
We concluded that the District met the projected number of students to be served by the CCLC
grant and had adequate documentation to support the number of students served as stated in the
District’s annual performance reports. However, we found that the District did not use and
properly account for the CCLC grant funds in accordance with the Federal regulations. During
the period from June 1, 2000 through February 26, 2003, the District charged 1,773 transactions,
totaling $1,091,775, to the CCLC grant. Our review of 181 transactions, totaling $346,999,
found that the District had improperly used $55,682 of grant funds in 32 transactions. Also, the
District lacked required documentation for $418,323 in personnel costs charged to the CCLC
grant. As a result, we were unable to determine the allowability of the personnel costs.

We recommend that the Department require the District to return the $55,682 (plus related staff
benefits and indirect costs) that were improperly charged to the CCLC grant. Also, the District
should be required to submit additional support for the personnel costs that lacked required
documentation or return the funds (plus related staff benefits and indirect costs) to its CCLC
grant account. Also, procedural recommendations are included to improve the District’s
documentation and review of costs charged to the grant.


FINDING NO. 1 – The District Improperly Charged $55,682 to the CCLC Program

The District improperly charged the CCLC grant for costs of preparing the grant proposal and
personnel, travel, and supply costs that were unrelated to the grant. The regulation at 34 C.F.R.
§ 80.20 (b)(5) states “[a]pplicable OMB [Office of Management and Budget] cost principles,
agency program regulations, and the terms of [the] grant . . . will be followed in determining the
reasonableness, allowability and allocability of costs.” The cost principles applicable to the
grant are contained in OMB Circular A-87, Cost Principals for State, Local, and Indian Tribal
Governments. The OMB Circular A-87, Attachment A, Paragraph C.1, lists the factors affecting
allowability of costs. These factors include that the cost must be “necessary and reasonable for
proper and efficient performance and administration of Federal awards” and “allocable to
Federal awards under the provisions of this Circular.”
 ED-OIG/A09-D0015                                                                      Page 3 of 15



Costs for Preparing the Grant Proposal Required Prior Approval. The District charged
$31,211 to the grant for costs related to preparing the grant proposal without prior approval from
the Department. OMB Circular A-87, Attachment B.34, states—
       Proposal costs should normally be treated as indirect costs and should be allocated
       to all activities of the governmental unit utilizing the cost allocation plan and
       indirect cost rate proposal. However, proposal costs can be charged directly to
       the Federal awards with the prior approval of the Federal-awarding agency.

The Department’s program specialist responsible for monitoring the grant confirmed that the
District had not requested or obtained the required approval. The District erred in directly
charging costs of preparing the proposal to the grant.

Unreasonable Travel Costs. The District improperly charged $4,858 to the grant for airline
tickets for two District employees to travel to a CCLC conference held in Arlington, Virginia on
August 3 and 4, 2000. On July 6, 2000, the District purchased nonrefundable economy class
airline tickets for the trip at a cost of $1,039. The tickets were for a flight arriving in Richmond,
Virginia, which is 75 miles from Arlington. On July 31, 2000, only three days before the
conference, the District purchased another two economy class airline tickets for the same trip at a
cost of $4,858. These tickets were for a flight arriving at Ronald Reagan Washington National
Airport. The travelers used the second set of tickets. Both sets of tickets were charged to the
grant.

OMB Circular A-87, Attachment A, Paragraph C.2, defines the term “reasonable cost.”
       A cost is reasonable if, in its nature and amount, it does not exceed that which
       would be incurred by a prudent person under the circumstances prevailing at the
       time the decision was made to incur the cost.

Since the District had already used grant funds for the first set of tickets, the cost of the second
set was an improper charge to the grant. We also concluded that the cost of the second set of
airline tickets was not reasonable.

Personnel Costs Unrelated to the CCLC Grant. The District improperly charged $14,384 to
the CCLC grant for a portion of the salary paid to three employees for work performed between
May 21, 2002 and December 31, 2002. The amount represents 25 percent of a school clerk’s
salary, 33 percent of the computer specialist’s salary, and 17 percent of a teacher’s salary. The
District’s CCLC program was not in operation during the time period due to a reorganization
affecting the grant’s oversight, and, based on our review, the three employees did not perform
grant-related activities during the period.

The District’s Assistant Superintendent could not provide an explanation for the improper
charges to the grant. We concluded that, if these employees had submitted personnel activity
reports or other equivalent documentation as required by OMB Circular A-87, District staff
would have been aware of the employees’ actual activities and could have made the needed
adjustment in charges to the grant. (Finding No. 2 discusses the District’s lack of personnel
activity reports or equivalent documentation.)
    ED-OIG/A09-D0015 	                                                                         Page 4 of 15



Travel and Supply Costs Unrelated to the CCLC Grant. The District improperly charged
$5,229 to the grant for travel and supply costs unrelated to CCLC activities.

         The District used $2,600 of grant funds for two kindergarten teachers to attend an Early
          Intervention for School Success conference. We concluded that neither of the two
          teachers’ work was related to CCLC activities since no part of their salaries had been
          charged to the CCLC grant.

         The District used $515 of grant funds for its CCLC Program Director’s attendance at a
          workshop held on December 7 and 8, 2001. The workshop was “designed to provide a
          thorough introduction to grant writing for anyone looking to acquire additional funds for
          his/her organization.” Since the Department had awarded the CCLC grant to the District
          prior to the workshop, the cost was not necessary and reasonable for the proper and
          efficient performance and administration of the CCLC grant. Also, as mentioned
          previously in this finding, prior Department approval is required to use grant funds for
          costs related to preparation of grant proposals.

         The District had booklets printed for migrant education at a cost of $2,114. These
          booklets were to be used by the students when they were at home and not as part of an
          after-school program.

Our review found that the forms submitted for requesting purchases were signed by only one
individual, even though the forms provided separate signature blocks for the preparer and two
reviewers. These improper charges could have been avoided had the forms been carefully
reviewed by a second individual to confirm that the purchases were related to CCLC activities.

Recommendations

We recommend that the Chief Financial Officer, in collaboration with the Assistant Secretary for
Elementary and Secondary Education, require the District to—

1.1 	     Return $55,682 ($31,211 +$4,858 +$14,384 +$5,229), plus related staff benefits and
          indirect costs, for the improper charges to the CCLC grant.

1.2 	     Implement additional procedures, as necessary, to ensure that purchases are correctly
          charged to the appropriate grant or other funding sources, and monitor staff adherence to
          the District’s procedures.

Due to the extent of our testing and the small percentage of reviewed transactions identified as
improperly charged to the grant, we have not recommended that the District review the untested
transactions for allowability.1



1
 Our review covered all 52 transactions for personnel costs charged to the CCLC grant for work performed between
May 21 and December 31, 2002. We reviewed 112 of the transactions for non-payroll costs, which accounted for
70 percent of the non-payroll costs charged to the CCLC grant. We found that only 5 of the 112 transactions were
improperly charged to the grant (a 4 percent error rate).
 ED-OIG/A09-D0015                                                                 Page 5 of 15



District’s Comments

The District concurred with our finding and agreed with our recommendations. The District
stated that the improper charges were unintentional mistakes and that it intends to return the
$55,682. The District stated that management controls were instituted, including better District
oversight and use of personnel activity reports, to avoid similar mistakes in the future.


FINDING NO. 2– The District Lacked Required Documentation for Personnel
               Costs Charged to the CCLC Grant
The District’s documentation for personnel costs of salaried employees did not comply with
OMB Circular A-87 requirements. OMB Circular A-87, Attachment B.11.h (3) requires periodic
certifications for employees who work on a single Federal grant or activity.

       Where employees are expected to work solely on a single Federal award or cost objective,
       charges for their salaries and wages will be supported by periodic certifications that the
       employees worked solely on that program for the period covered by the certification.
       These certifications will be prepared at least semi-annually and will be signed by the
       employee or supervisory official having first hand knowledge of the work performed by
       the employee.

OMB Circular A-87, Attachment B.11.h (4) requires personnel activity reports or equivalent
documentation for employees who work on multiple activities.

       Where employees work on multiple activities or cost objectives, a distribution of
       their salaries or wages will be supported by personnel activity reports or
       equivalent documentation which meets the standards in subsection (5) unless a
       statistical sampling system . . . or other substitute system has been approved by
       the cognizant Federal agency . . . .

OMB Circular A-87, Attachment B.11.h (5) lists the required elements for personnel activity
reports and provisions for using budget estimates for interim accounting.

       Personnel activity reports or equivalent documentation must meet the following
       standards:
           (a) They must reflect an after-the-fact distribution of the actual activity of
           each employee,
           (b) They must account for the total activity for which each employee is
           compensated,
           (c) They must be prepared at least monthly and must coincide with one or
           more pay periods, and
           (d) They must be signed by the employee.
           (e) Budget estimates or other distribution percentages determined before the
           services are performed do not qualify as support for charges to Federal awards
           but may be used for interim accounting purposes, provided that:
    ED-OIG/A09-D0015 	                                                                Page 6 of 15



                (i) The governmental unit’s system for establishing the estimates
                produces reasonable approximations of the activity actually performed;
                (ii) At least quarterly, comparisons of actual costs to budgeted
                distributions based on the monthly activity reports are made . . . ; and
                (iii)The budget estimates or other distribution percentages are revised at
                least quarterly, if necessary, to reflect changed circumstances.

Prior to January 2003, the District did not require employees, who were paid on a salary rather
than an hourly basis, to prepare personnel activity reports or equivalent documentation, such as
timesheets, or, when applicable, periodic certifications.2 Instead, the District allocated salaries to
the grant based on predetermined distribution percentages shown on the employee’s personnel
action form. OMB Circular A-87 specifically states that percentages determined before the
services are performed do not qualify as support for charges to Federal grants. The District’s
Assistant Superintendent stated that time reporting requirements were one of the requirements
overlooked before the program was temporarily suspended.

In January 2003, the District began requiring employees whose salaries were paid all or in part
from grant programs to submit timesheets, but the employees were only required to submit them
for the first three months of the calendar year and reported time was limited to categorical
programs, such as the CCLC grant. OMB Circular A-87 requires that employees working on
more than one grant prepare personnel activity reports (i.e., timesheets) at least monthly and
account for the total activity for which the employees are paid. For employees working solely on
one grant, the circular requires periodic certifications.

Since the District did not have the required documentation, we have no assurance that grant
funds were properly used to pay $418,323 in personnel costs for activities related to the CCLC
program.

Recommendations

We recommend that the Chief Financial Officer, in collaboration with the Assistant Secretary for
Elementary and Secondary Education, require the District to—

2.1 	    Provide additional documentation supporting the charges to the grant for employees paid
         on a salary basis or return $418,323, plus related staff benefits and indirect costs.

2.2 	    Implement a personnel activity report and periodic certification process for employees
         paid on a salary basis that complies with OMB Circular A-87 requirements.




2
 The District required employees who were paid on an hourly basis to prepare timesheets. We concluded
that the documentation provided for these employees met the requirements listed in OMB Circular A-87.
 ED-OIG/A09-D0015                                                                      Page 7 of 15



District’s Comments

The District agreed with our finding, but disagreed with our recommendation to provide
additional documentation or return the amount charged for personnel and related costs. The
District concluded that to the best of their knowledge, the work performed by the salaried
employees during this period was solely related to the CCLC program and that the personnel
costs were solely related to the grant. The District stated that it is unable to provide
documentation other than the attendance and payroll records already provided to the auditors.

To address our procedural recommendation, the District described how its procedures were
modified to comply with a substitute time accounting system approved by the Department for
local educational agencies in California. To comply with the substitute system, the salaried
employees will complete a personnel activity report every fourth month (three times a year). The
California Department of Education letter describing the substitute system, which was included
in the District’s response to the draft report, states that the personnel activity reports will account
for 100 percent of the employee’s time.

OIG’s Response

We did not change our recommendation to require the District to provide additional
documentation or return the personnel and related costs. We encourage the District to work with
the Department on acceptable alternatives for adequately supporting the personnel costs charged
to the CCLC grant. OMB Circular A-87 permits the use of an approved substitute time
accounting system to support charges to Federal grants and we confirmed that the Department
had approved such a system for use by local educational agencies in California.


                   OBJECTIVE, SCOPE, AND METHODOLOGY
Our audit objectives were to determine whether the District (1) served the appropriate number of
students at each program center that was projected in its CCLC grant application and reported in
its Performance Report, and (2) properly accounted for and used CCLC grant funds in
accordance with the grant terms and applicable Federal laws and regulations. Our review of the
number of students served covered the period from June 1, 2000 through May 31, 2002 (first and
second grant year). For the accounting and use of grant funds, we reviewed amounts charged to
the grant from June 1, 2000 through February 26, 2003.

To accomplish our objectives, we reviewed the District’s CCLC grant application, budget,
performance reports, and OMB Circular A-133 audit reports for the years ended June 30, 2001
and 2002. We also reviewed the District’s written procurement policies and procedures
applicable to charges made to the CCLC grant. We interviewed various District employees
responsible for the administration of the CCLC program. We also communicated with the
Department program staff responsible for monitoring the grant.

To achieve our audit objectives, we relied on reports of CCLC grant payroll and non-payroll
expenditures for the period from June 1, 2000 to February 26, 2003, which District staff
generated from the financial accounting system. We verified the completeness of the data by
 ED-OIG/A09-D0015                                                                   Page 8 of 15



comparing totals reported on the District’s audited financial statements to the total expenditures
on the reports. We also compared report information to information on source documents for
sampled transactions. Based on the results of these tests, we concluded that the data was
sufficiently reliable to be used in meeting the audit’s objectives.

We reviewed the 52 payroll transactions shown on the District-provided report that occurred
between May 21, 2002 and December 31, 2002, when the CLCC program was not in operation.
We reviewed an additional 17 payroll transactions that were randomly selected from the
remaining 164 transactions. We scanned all transactions related to the staff benefits costs for
unusual amounts. For non-payroll transactions, we reviewed 112 of the 476 transactions listed
on the District-provided report. We judgmentally selected 57 non-payroll transactions with the
highest dollar amounts and then randomly selected an additional 55 non-payroll transactions.

We performed our fieldwork at the District’s administrative offices in Gonzales, California,
between March 3, 2003 and May 2, 2003. An exit conference was held with District officials on
July 16, 2003. We performed our audit in accordance with generally accepted government
auditing standards appropriate to the scope of audit described.


                 STATEMENT ON MANAGEMENT CONTROLS
Our assessment of the District’s management control structure was limited to those areas of
control weaknesses identified while conducting substantive tests of grant expenditures. Based on
our review, we concluded that the District needs to (1) implement additional procedures to
ensure that purchases are correctly charged to the appropriate grant or other funding sources, (2)
monitor staff adherence to the District’s procedures, and (3) ensure that the District’s support for
employees paid on a salary basis complies with OMB Circular A-87 requirements. These
control weaknesses are discussed in the AUDIT RESULTS section of this report.

                            ADMINISTRATIVE MATTERS
Statements that managerial practices need improvement, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective actions to be taken will be made by the appropriate Department
officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
officials who will consider them before taking final Departmental action on this audit:

                              Jack Martin
                              Chief Financial Officer
                              Office of the Chief Financial Officer
                              U.S. Department of Education
                              Federal Building No. 6, Room 4E313
                              400 Maryland Avenue, SW
                              Washington, DC 20202
 ED-OIG/A09-D0015                                                                   Page 9 of 15




                              Ronald Tomalis
                              Acting Assistant Secretary
                              Office of Elementary and Secondary Education
                              U.S. Department of Education
                              Federal Building No. 6, Room 3W315
                              400 Maryland Avenue, SW
                              Washington, D.C. 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions under the Act.



                                             Sincerely,

                                               /s/

                                             Gloria Pilotti
                                             Regional Inspector General for Audit


Attachment
ED-OIG/A09-D0015                                     Page 10 of 15




                         ATTACHMENT



              GONZALES UNIFIED SCHOOL DISTRICT’S 

               COMMENTS ON THE DRAFT REPORT 

                GONZALE~ UNIFIED ~CHOOL DI~TRICT 

                Novembo, 3, 2003
..swM::m rom:

                Gloria Pi!om
                Regional Inspe'tor Gene ral for Audit
                U.S . Department of Education 

                Office of ln!e«tor Gene",! 

                501 I Swet, Suite 9·200 

                Satr.mte:lto. CA 95&14 


                Ml. Piloui:

                I have received you, d,aft aud it ,eport dated (Xlot}er 10. 2003 in which you present your
                findi ngs and recommendations regarding our (CLC grant. This letter ....ill pravide OUr
                'espo<Ue to those findinp.

                The di5mCt has alwa~ anempted to impltme~t the g:'2I'It in accol'd3ntt with the grant term:;
                and federal regulations. We ~.aw: alw complied "'ith ~ll requests by Ann G<XXlwin for records
                3nd documentatioo during the CClC program audit

                The report sta~ that charges to the prognr!1 in the amount of $55,6$2 were foWld 10 be non­
                compliant, and we do not <OflteS! this. TMse e~penditure$ we ... unintention.il mist.lkes lIlat
                Were deemed to be proper ~t the time. The di:!n-ie: t.lkes lUll respon$ibility for these errors and
                imend. to «!Urn the S55,682 Ih'tt was im~rly ciwged 10 the program. Funbcrmore. we
                llave inslilUted manageme~t controls. including better di.trict ~rsiglu ..'1<1 1.= of personnd
                -'Ctivity re;><><ts. 10 avoid similar mistakes in the future.

                The report also Stat •• that the distri': lack.! dcxumentJtion for $J I 8.)23 in personne l costs
                charged to the p.ellrtlm. These eXjX"nditures tov~fCd o.aIari~d employee, ..... ho worked full
                time in the prog=n from June 1,1000 to M ~y 31, 2002. The district kept anendance and
                ~;;ron reco,d! for that pelk.:!. which we provided to the audit~. How.""r, "''C lack detailM
                «;x>r>s showing !he daily activiticz ofuch emplo~. This is a wk whiCh, at !his poin~ is
                impossibk to rem~dy since <0 much time has pMSed aro:I employees h~ve left the dismct.
                including the odminiwatot'l who wef1: resporllible for mpe",ising the progrom.

                We have investigated and concludtd thaI, to the 1><5t of Ou r knowledge. the work of tileS<!
                salaried employees during this period was $Olely relat.d to tM CClC progr;un, and lhallhe
                salary expe,..el """'" consil:'n' with the gran~ Altoough we:lre ufL1ble to provide more
                documentation other than that which""" have already provided, we di..agree ....,th the
                C(lnclusion of the "'port that the diltria should mum S418,323. We requesl that the US
                Dep:lr'!ltlen! ofEduc.ation accept the doo:umemarion lhat w. hi"" provided and dismiss Ihis
                add itional penalty.

                If you have any queslionl or if you wish   I(l   diz.c= lIlis response. pl.""" call me at (831) 675·
                0100 e:«e,..ion 110.

                Since",t"



                Em.,t S. Zerm.~o
                Superimeooent
GONZALES UNIFIED SCHOOL DISTRICT 

A::n Good...·i.'
Office of J:u;p~c:cr G.II~r.ll
US ~p.L"me"t of Eciw;:uicn.
SO! IStte.:\,Room9-200
Sacr=nto. CA !/5814

De~r   Ann:

As you rCll~e.\led. here is a funl\e~ expla.oaticn of our respcn~e to
re ;Offir.JC~dlriell n wnbe: 2.2 frgm L~ draft ..:<iil reper.: d.ne:! October 10.1003.
This ile:n req tlirel that, po:S<lMe! ,~:j"hy l":?Ort l~d. perioiie 'e!'lifj;ation
plcce.s be implclllCnled for •• b.tow e:l1p] oy""S (OMl> Circular A_8 7}.

The <!isme! h.!.s developed a p<:rsor.1le1 aeli¥ilYf9°O form L~at lilt bee~ LlS<:~
since hnullj' 2003 for nlmed employees "" orkiog onl f,"k,al ,r.mt. You refe!
(0 !.his form C;l p.t~ 6 of your report. This [Olt:l will be prep,,-,ed by 111 $.\:t...,ed
employ••s c',cry four:h montr. (three lime. a ~'e.lrl. "" nidi is in ~.:ping ",ii.h oW"
ullders:...ndin& of the substin:!C lillll: ~;COI.m:i!)., ')s:~::J wr.ich "''liS "PPICl"e:i for
LEAs in Ulifomia io 1998.

I hope this Foce$s i. acceptable in rnr:::'ng the r<;l;O!lllI'.e:ld:tion ir. your a ~'dic
repon . If you havo any    furt.h~r   que'lionl,   pte~se   <an =.1 (831 ) 675~I OO, e~[.
!lO.



Erni e S. 7...em-","o
SUp"rin(Cn~.d.n!
                                                                                      ,.-.   :.--:. '.7­
                 :"'..'-'"e   t.o..,..,~.
                                                                                        c,..u,ot;"U;
                                                                                      ....~..-......,an
                "'"" -"'~.~"'-'"                                                      !..       01'"..
                                                                                      ~~DD ..   'n",.




 DATE: 	        J\lIl~ 26,     1998



 TO: 	          Ccu.::'Y a::d Dis:riel Su::c.r.te~der.l.S
                Cel:.'"lty am:! Dime! ChiefBus'.c:ss Offic~~s
                COUllt"j znd Distric: Admini!~lOn cfCa~c:oricz1 Prosrann


 FROM: 	        ]l.Il~ Slcrlillg. Dir~:tor 

                School Dus'"".ss            Se:-.~ccs   Div'..I.)ot:\ 



 SIJEJECT: 	 Appnvod-Subrtihlte System for Tim .. AC~gUlltiiJ.g for F ~d " r.all'rogra=

We a:-e pleased to =Q'.w~: tl-.al the U:1iled SUles D9:L..'"U:lml ofEcucation (USDE) b;u IPprove:i a
~uorut"""tesilmpling systc::::. for time aceOUllting for federal FfOgr:uns for the local educational ~ge:)cies
(LEAs) in Califemla.

!h" sub..-.iru:e sys:el:). can 0.. U$ed by Califorml.' s LEAs, at tl::e'.r o"tion, o..ginr.ing july I, 19n, for
rubstantiating fede~al sala.- y 1I!ld wage chuges for !bose eJ::?loyees wo:lW!g en ",~l!ipl~ /=d~d
ccrivilje~ 01' COJ:   objecri·Ju.

Tnc sub..-.itulc sys:e:n is inte;)dd 10 simpli:fj re::ordhepin: for LE?s !bal mu.~l subs-..a:l1.iate S!llzr/ Illd
"''age charges to federal program! through the usc ofperso~cl o<etivi'Y :lOpe;"!s (PARs) or equn..knt
docllfilen~tiolJ.. WithO\ll/Ul ap;Jrov~:! S"<J.bstirute sySlt::n. PARs mU5t b~ prt.pard at lust moc~ for
emp!oy~es wcrltit;g on activities ftmdee from :nultipl~ I:-:;'I\;.:·-':es ....il~;)~VCl federal fund3 &:c involved.

Under the l1".lbstitul~ system approved for Califomil, PARs may b" less frequ~IlL Sp edDuUy, ~e
system allows LEks: to collect P.o\.Rs frol:1 ~m?loy~~ ~~ry fourth mo"/}' (tru-~: times a year)_ lee
i:uormatioll fror::: Ut PARs is uscd 10 ~ate lbe pc.xc:-ll.'Age efurne :mployets will 5p<:nd ell V3JlOUS
:eccraJ p,ograrns in !he next three months, and \0 fcC"oncik the feder~ timekeeping estiJ:::lII~1 frem the
p:e~o\lS. three mon~. TIlls system works ben ",-he:! the cecpo~ite ·"'orklol'.d pIodue:, a::J ever.
dlstrtbullCII of WL'"1e:5 to a<:ccll?lS OVer the Nli12-rno"th penod..

The fo!lowin, il a description of the subSUMe 5)'$le", procell. The d!:.SC"ription &Ssur::lC, thlt \he L~"".
begins the $Ilbstitutc recordke=jl!ng prQc;e$$ ill July; bo_ver, LE..:.s may cooose &11)' mocth 10 begm t.~c
cyck BecaU$e Lb: ~.artiD.g mOlllhe~..ab!ishes thc recorCketpills eyde rOT me year, .....e ~:~ll'.::!l=d LEAs
choo~ a =ing ::ncnth that mest accUo"1l.1ely rdkC"tlI their 11lllt:al avenge bbor <;"Olt expene"llcr _

   • 	 All multiple ~source fucded employees (i.e., thoSe e.'nployees fundd froc meTe thin one
       r"source, al IU$I one ofwhieh is feclern) keep FA-Its forth" full mOllt.~ of July 10 I~<:)I!J:!{ for
       I 00'10 oft.~eir time sp~1 OQ acth·ities fOT which tl;q ue compensated. from the PARs. labor
        ciist;';l;u~o::l. t~jlCr-;; for Jul y ce !1~:l.::at~:::I ~iU.e: i!t."~ usd to S''''ppon e('fon c:s:-:b~:iell a;,d cha.-g~3
        fo~ :ncu.- :::: CO~i.$ l~ July, 'I.::d P:OY]C:  t.,,,    C&3I' for e:::.~ 101e: sa!:L, and fringe h:le:il !.llocations
        for AUgu.!l, St;;le:tlO(t an':' Ce IOC::.



         1) 	 SU~?ort effort and labor com incUlTed i., the tMnths ofNo "'e mbet ~d MaId!,
         2) 	 "OGlpue ....it.\ and adi.U$t ti:~ 'oudj;cted efion cistriburion ior the pdoc:U Aug->= tbough
              Ckoeer l.:ld Deet:nbe: through Ft ~nI2."Y,
         3) 	 project salary a.,d f:i,ge Oe:le~t ~!QC..1.rior.s f(lr~e pe;i",ds Deee:ncc; u=u,!,h te'::I".J.a.."),, l.nd
              A:l:i! 6:Q1J.gh J~.

    •   The sam e proc:ss is (oHowed Ollce mOl e in July 10 mp:;:or: lllC'.l."!d labor cos: al]OC!tiCI:S for t.~al
        me!::!! and to coa:.pare IJ3d adjust tne bllds:eted eEort d.istr:!Dution fer '.be pe:iod Apd through
        JC!!c. FUI'..hcr, the July? 10..1. \.5 run anothe rOlllJd of labor Gismbuuon estimates for the s~ ,olld
        year.
    • Alter the t:" full yeu on ti:e systc::J, LEAs tn.ly!'ciit ::C::l collecting P.....lU tr.:e          ti.::::s ~ yea: 10
        two li:r::S a Y"u, if the cevj;U:;cll e:r"'cc,. tile:: total es'-"",,:d a:::,: :o:al. .e~ ti..'l'.~ c:'2.;'!;(S is
        eo::!>=tly !:SlIi tilu 10%. ThC"4't~;, til~ Mcc,), t 'l.:iy ?AR coikdo::. ='y be :::.<i:.'2;"~ci :u loog
        as th e cevi"UOllls <;OCS'..alluy le ss Ill...' ! 1ootl..
    • 	 Wrir:en !,o\icies ... ,,:! pr;ocdur"l "l"e "lsenti!.! to i::;.\c :::cr.-:i.::g   =   e ffeeri ... e h.bor 65...,'0"0:::0<1
        systec. Ead;, LEA must cit... dop tneir 0·...'l:I i!Ut1:ction.s for:

         1) t:.,e CO!:lpletiOIl of PAfu (ilJc]uciing information <tbom bow ::-eguelllly P.~_~ <i.o.u t:t:~t be
           reec."<kd and ""hal cces.it\!'!~s aQe:l.u.a~e doecme:ltatiC::l),
        2) tt.e ,evie."" Illd appro"'ll cycle ~t is reqci:ec.
        ~) 6e baIldii...;i: ofcom:;:le:ee fo=.
        4} ti:e int=a..I review prOl.''''''' rht ""'ill k tS"..ablis:"eoi to c=c cor:l.plia.'1ce.

        GCIle:clly. this infon::llcon sbould be in su...lDcie::>.1 ~e·.a.il :0 permit aol ur":!ers1A!)c.;,,,g of bow l.>Us
        syst= will operate f:om the point l:lb<lr is expecded, to the poim it is n=1;otded in the aeeOUlltlr.i
        r ecords and chuged to Feder.;! a''''<:rC3.

        LEAs mll5t de...,lop forms ad m.a.na!:eoe!lllIld employe: irutructiooa.l matdab \0 meet the::
        particular :leeds for ti.!r.e accounting. We ru&gesl cors.1lting your indepcne~l audito: fo:
        gujdznce specifie 10 yOlll' LEA io tiJi5 process. We ~ LEAs to provid e t:'ail:ri.nt be~ore
        implementi:!g tile syS".c:n, acd wc rugges: deL,! a "trW ru:l" befere begio..ni.ng u.~ ac;ual subS'tiru::
        $ys".c::Il proct;s.s.


        We wuuld app; ttiate re<:.eiviIlg copks of LEAs' cia::! ,olle~::oc do"uneIlts il.Ild i::srrue'..ion:U
        mat~riih.  Ca.lifor:ni" is ace of a "~ry <"e"'" 5t.1:.C$ appro...ed for such an inI'lov a\;Ye substirute ~yS'le:n.
        We expect that follow,up reviews ""ill be conduclee with LEAs 10 l.!sess tlJe lmvl eme:ll.ltion and
        efficacy oft.l:lc sys:em, 10 dele=ine if "flIle·runi..cg" is ~ ecessa."Y, a:Jd 10 gather i.;rormation 10 help
        us share id eas and best practices wiTh oth er LEAl and "'ith other $t2.t:s.

l:tl?OrU,,!11 Ruks of the Rcad:

   ]. 	For ?UIpOsu of ws schromte syste:n, ~ "rnulti·fi:Ilde<i" 0: "mclti?le resoll."U fi.."1ie:i" emp\oy"e
       m<:llIs t.lut the <:mployee is fu..,·,<:kd from ooe of the follo"';r.g funding cOD1.bbatioru;:
          a} the. t:::Jploye:   i~   funded by more than one ftde:<.l UtcgQr,cll      prc~ ~o<:.tt:,      md that
             fu::ding is no! combir;eci in a Schoel·...'idc Progr2.:n (S \1I?)
          b) the e:nfllcye: (5 fu::lI!ed by a.mi;:.: aff:~:~ and 5"..t:: w:gcrio! progrzm fcdb.S sources
          c)   t!:: e~~loy:: is fuD~eci 'cy a :ni;:.: offeder1.l c.2.!ogcncil :?ro ~T.s (other t:'llln 5V.';1') and
               :;enenJ pUl'pOse fur:&g 50==5.

   1      rr.ose emilIoye:s fun':e~ solely (I 00%) tem a single fede:a! source mWl i:e r;:c/lJdea from ti-."
          S"..:.hstitule sy!lem, ee:Ol.\l5o thdr data would <fulc:11!:: agg:eglle r:s'llu of ilie c::u1ti-f>mdd data..
          (Th ese c:nploycts pre;:art soti-ant:.uai ce:'ti.fications.) 	                      .

   J. 	   if LE....- l llSe ilie SIIb~;jwle system. zll mU:li-5.ocded e:;nplcye::s tnit are rc::ci,-ed \0 cor::pI::e ? .'\_lU
          cuo. pa.""tie::?Ol.te.                                          .                     '

   4. 	 l' A.~ ~o:npkt:d by cae!! pz...""ticipatil!g :::u.lti-fu.,ded :::nploye: =! cover the f1:ljrt rr.cr.ln that is
          beicg sacpled.. .

Tho ceei~ioo \0      =  this .substitutc sync.::. far 1.Ilo~ating s..Ja.-'iu and "'ai:s:o f~e:aI progr=s is lotal!y
al '.he OptiOD of caQ LEA.. ,;..'1.: :xa::ucing this .subS>ltu:e ryru::n, LEA:s: !!lay wish to continue t:-:e:r
curren! !!lct!:ods of subs:Orill!iDg s!.iary aod "'-age d:arg<s to fd.:a.I projp"U::lS, nt!:~r t!:an \l5e the
nlb5titute systec. Ether "'''''y, We S""olUest !ha! ;tel! ;e:e:- :0 Itc i..'lfc::narion on ~c reqci:cme::tts fot
d::x:u::;ecti:lg salary l!.."Id ~e cl::a:-~e 5 tb~t was p:ovidcc in ell:: AUgust 28. 159i k:;cr titled' Sala:1cs
ar:d W ~ges O:ariied to Fede:al Pro~s, Pur.;uanl !e Office ofMa:Laj:ca:ent 2l:l<l Budge! (OI-G)
C!:<::u1ar A-&7.· ThaI lener "'<U ~ e:).t to lo..H coun;Y <.:lei CiStric: !1.']le.m:e.'ldcou, c;';:!Ou:s'.;;ess offie::.:!,
L"lei ~dznCi:;t:atcrs ef ca~!:oric.al progr;l.mS.
